         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Audit of Moab Mill Tailings Cleanup
Project




OAS-RA-L-10-03                         April 2010
DOE F 1325.8

(08-93)
United States Government                                                              Department of Energy


Memorandum
          DATE:   April 23, 2010                                    Audit Report Number: OAS-RA-L-10-03
    REPLY TO
     ATTN OF:     IG-34 (A09ID019)
     SUBJECT:     Report on "Moab Mill Tailings Cleanup Project"
            TO:   Deputy Assistant Secretary, Program and Site Support, EM-50

                  INTRODUCTION AND OBJECTIVE

                  The Moab Uranium Mill Tailings Remedial Action Project (Moab Project) is located at
                  a former uranium-ore processing facility near Moab, Utah on the west bank of the
                  Colorado River. In 2005, the Department of Energy (Department) issued a Record of
                  Decision to relocate, by rail, approximately 16 million tons of uranium mill tailings from
                  that location to a disposal site 30 miles away in Crescent Junction, Utah. In June 2008,
                  the Department awarded a $92 million contract, with approximately $6 million in
                  available fee, to EnergySolutions to construct the necessary infrastructure, upgrade the
                  rail lines, and begin the transportation of mill tailings to Crescent Junction. Under the
                  terms of the contract, EnergySolutions was required to relocate about 2.5 million tons of
                  tailings by the end of Fiscal Year 2011. In April 2009, EnergySolutions completed the
                  first shipment of tailings to Crescent Junction.

                  Under the terms of the American Recovery and Reinvestment Act (Recovery Act) of
                  2009, the Department allocated an additional $108 million to the Moab Project to
                  accelerate work and create jobs. With the additional funding, EnergySolutions plans to
                  relocate an additional 2 million tons of tailings by September 30, 2011. In keeping with
                  the Recovery Act, this work was estimated to create or save 160 jobs. To achieve this,
                  EnergySolutions doubled the number of work shifts per day and has increased rail
                  shipments from 4 per week to 10. Because of the inherent risk associated with large-
                  scale cleanup projects and the addition of Recovery Act funding, we conducted this
                  audit to determine whether the Department was effectively managing the Moab Project.

                  CONCLUSIONS AND OBSERVATIONS

                  Generally, we found that the Moab Project was proceeding as planned and within
                  budget. As of January 2010, the project was slightly ahead of schedule and six percent
                  under cost. In September 2009, EnergySolutions submitted a performance baseline to
                  support the tracking and reporting of Recovery Act work as well as the overall
                  integrated project. Nothing came to our attention to indicate that base and Recovery Act
                  costs were not properly segregated and adequately supported. Additionally, the number
                  and weight of shipments we reviewed for both Recovery Act and base work scopes were
                  separately tracked and reported. We also found that the contractor's reporting of 200
                  jobs created/retained as of December 31, 2009, was properly documented and appeared
                  to be reasonable.
Our audit testing did, however, reveal several opportunities to improve the management
of the project's performance baseline. These issues relate specifically to the baseline
change control process and increased the risk that the contractor's performance rating
may be inflated.

                                  Baseline Management

Although the Moab Project was, for the most part, proceeding as planned, we noted
certain weaknesses in the management of the performance baseline. The Department
requires the use of the Earned Value Management System (EVMS) to evaluate project
performance. Under EVMS, the contractor's performance is measured against the
project baseline, so effective management of the baseline is critical. However, for some
of the work, we noted that the Department did not sufficiently decrease the project
baseline to reflect reduced work scope, which resulted in overstating the contractor's
performance.

Specifically, we concluded that the contractor's performance was overstated by $1.3
million for construction of a "haul road" for the project, as a result of incorrect baseline
management practices. To illustrate, the originally approved Moab Project baseline
included construction of a two-lane paved haul road and rail bench for $7 million. To
decrease costs and address operational needs, the Department approved a re-design to
the haul road to be one-lane and unpaved. Although the baseline was reduced to $6.3
million to reflect this decrease in scope, it was not reduced as much as it should have
been to fully account for the removal of one-lane and of the costs to pave the road. We
calculated that the baseline should have been reduced to $5 million based on data found
in the contractor's analysis of estimated costs and savings to redesign this project. Upon
completion, the actual cost of constructing the haul road was just over $6 million. Thus,
when the Department compared the actual costs to the incorrectly revised $6.3 million
baseline, the comparison erroneously demonstrated the contractor had constructed the
haul road for $.3 million less than the estimate. However, the actual costs should have
been compared to the correct $5 million estimate, thus showing the contractor had
constructed the haul road for $1 million more than the estimate. The use of the higher
baseline estimate, therefore, overstated the contractor's performance under EVMS by
$1.3 million.


                                Haul Road Baseline Example

Baseline Management           Department Calculation   Auditor Calculation   Overstatement

Estimated Cost to Construct         $6.3 million            $5 million        $1.3 million
Actual Cost to Construct             $6 million             $6 million             0
Performance Savings                 $.3 million            ($1 million)       $1.3 million

We also identified weaknesses with the baseline management of a lidding/delidding
facility where the baseline was overstated by about $400,000. The contractor's $884,000

                                     2
estimate to construct this facility consisted of a single-line item amount with no
supporting detail in its approved performance baseline. Subsequent to completing the
baseline, the contractor finished the detailed design of the facility. The designed facility
did not conform to the original estimate. Indicative of problems with the baseline
estimate and the initial design was that a bid for just one component of the facility, the
Heating, Ventilating, and Air-Conditioning (HVAC) system, was over $1 million,
exceeding the original estimate to construct the entire facility. Once the estimate for the
HVAC was received, and to avoid constructing a facility significantly over budget, the
Department directed EnergySolutions to re-design the facility to be within the original
estimate.

Since the need for a re-design was driven by the contractor's inaccurate baseline estimate
rather than a change in mission need or scope directed by the Department, the
contractor's performance, in our judgment, should have been measured against the
original $884,000 estimate. A basic principle of project management is that a
contractor's performance is measured against its approved performance baseline.
However, the Department approved a baseline increase of approximately $400,000 to
add the cost to redesign the facility. When the construction costs to complete the
facility, including the additional re-design costs, totaled $1.4 million, the EVMS
compared this to the revised baseline of $1.3 million, rather than the original baseline
estimate of $884,000, thus overstating the contractor's performance.

                               Development of the Baseline

These problems occurred because the Department did not ensure that the project's
baselines could be traced to project work scope or that they were properly supported and
appropriately managed. While the Department has issued guidance to facilitate the
proper management of project baselines, this guidance was not always followed.

The descriptions of cost estimates in the baseline were not delineated clearly enough to
readily determine which part of the project they were supporting. In some cases, the
baseline estimates were not adequately supported. To illustrate, the estimated costs of
the haul road were split between multiple elements in the Work Breakdown Structure
instead of estimated as a discrete project. Additionally, the estimate in the baseline for
the lidding/delidding facility was not adequately documented or supported. It consisted
only of a single line estimate of $884,000, with no details identifying the various
elements of the facility. Upon review of our findings, management agreed that
inadequate contractor estimates in the performance baseline were a major contributor to
the need for re-designs. However, we noted that the Department approved the
contractor's original estimates with approval of the baseline even though there was very
little support available. DOE Order 413.3A identifies the guidelines for developing and
approving the performance baseline. For the Department to approve the performance
baseline, it should be based on a mature design, a well-defined and documented scope,
and a definitive cost estimate. However, for these two elements of the Moab Project, the
baseline estimates did not meet these criteria.



                                     3
In addition, we noted weaknesses in baseline management that occurred, in part, because
the Department did not follow accepted guidelines when making changes to the
baseline. In particular, the Department approved reductions to the work scope but did
not make corresponding reductions to the baseline cost estimates. The Federal Project
Director indicated that the baseline increases were appropriate in order to document the
changes and track the contractor's performance to the new design. While we agree with
the importance of documenting changes, the changes made did not allow the Department
to track the contractor's performance to the new design. As previously discussed, the re-
design of the haul road resulted in an estimate significantly less than the original
baseline; however, the Department did not compare the contractor's performance to the
appropriate baseline amount. The lidding/delidding facility was scaled back but the
actual costs were still compared to the original baseline estimate. The contractor’s
performance was overstated because work scope was reduced without reducing the
baseline estimate.

Further, the Baseline Change Control Board Charter identifies the procedures for
incorporating changes to the scope of work into the baseline and states that retroactive
changes are not allowed. However, the re-design of both the haul road and the
lidding/delidding facility was completed before the baseline changes were approved. In
both instances, the Department erroneously used the actual costs of the re-design to
update the baseline rather than the original estimated cost. During our review, we found
that for 19 of the 49 EnergySolutions baseline changes we reviewed, the work had
already been started, and in some cases completed, before the baseline change was
approved. In May 2009, after an independent review of the contractor's EVMS revealed
similar weaknesses, EnergySolutions completed corrective actions on controls over the
baseline change procedures.

                                Contractor Performance

As a result, inflating the budgeted cost through erroneous baseline increases overstates
the contractor's performance and its eligibility to earn award fee. The EnergySolutions
contract is structured as a cost plus award fee, so all allowable costs are reimbursed to
the contractor with the payment of an extra award fee based on performance. The award
fee has a "gateway" performance measure based on the contractor's EVMS scores.
Specifically, the contractor's eligibility for an award fee is dependent upon its
performance and measured by the EVMS. To be eligible for the full award fee, the
contractor's cost and schedule variances must be less than 10 percent. While the
weaknesses we found may not be sufficient to move the contractor below the threshold
for earning a full award fee, an inflated baseline does improve the variance scores. Thus
it is imperative that the Department accurately manage the baseline to ensure that the
contractor is not rewarded for performance that was less than desirable. Additionally,
incorrectly inflated baselines decrease the incentive for EnergySolutions to reduce costs
on the project.




                                    4
SUGGESTED ACTIONS

To address the issues described in this report, we suggest that the Deputy Assistant
Secretary of Program and Site Support:

    1. Revise the project baseline to correct the problems identified in this report;

    2. Ensure that the EnergySolutions EVMS is accurately tracking performance
       against valid baseline estimates; and,

    3. Ensure that baseline changes are not made retroactively based on actual costs.

Because no formal recommendations are being made in this report, a formal response is
not required. We appreciate the cooperation of your staff and the various Departmental
elements that provided information and assistance.




                                            Daniel M. Weeber, Director
                                            Environment, Technology, Corporate
                                             and Financial Audits Division
                                            Office of Inspector General

Attachment

cc: Team Leader, Office of Risk Management, CF-1.2
    Audit Liaison, Office of Environmental Management, EM 4.1




                                    5
                                                                                       Attachment
SCOPE AND METHODOLOGY

The audit was performed from April 2009 to April 2010 and included fieldwork at the Moab Site
near Moab, Utah and the Grand Junction Office in Grand Junction, Colorado. The audit covered
project documents from the Department field office, as well as both contractors, EnergySolutions
and S&K Aerospace, Inc.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. Also, we examined the establishment of performance measures in
accordance with the Government Performance and Results Act of 1993 as it relates to the audit
objective. Finally, since we did not rely upon automated data processing information to
accomplish our audit objective, we did not conduct an assessment of the reliability of computer
processed data.

The Grand Junction Office waived the exit conference.




                                                 6
                                                               IG Report No. OAS-RA-L-10-03

                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
